U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jose Hernandez v. United States of America,
S.Ct. No. 20-7610

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 24,
2021, and placed on the docket on March 30, 2021. The government’s response is due on April
29, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7610
HERNANDEZ, JOSE
USA

GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 WEST BROADWAY
SUITE 1130
SAN DIEGO, CA 92101
619-699-5930
GBURCHAM@SBCGLOBAL.NET

